2311 Douglas Street CA ; E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214
Est. 1923

Web Site

1-800-225-6964
www.cocklelegalbriefs.com

(402) 342-2831
Fax: (402) 342-4850

No. 20-827

UNITED STATES OF AMERICA,
Petitioner,
v.
ZAYN al-ABIDIN MUHAMMAD HUSAYN,
aka ABU ZUBAYDAH, et al..
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR AMICUS
CURIAE ELECTRONIC FRONTIER FOUNDATION IN SUPPORT OF RESPONDENTS ZAYN
AL-ABIDIN MUHAMMAD HUSAYN, AKA ABU ZUBAYDAH. AND JOSEPH MARGULIES
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1 (b),

being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 7976 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 20th day of August. 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska A 2 b y
RENEE J. GOSS: 9. ( dee Tap :
My Comm. Exp. September 8, 2023
Affiant

Notary Public
41229
